                                        CLOSEOUT FOR M96080020

         This case came to OIG on August 9, 1996, when the first complainant' informed us of
 allegations of misconduct involving the ~ubject.~  We also subsequently received related
 allegations from two other complainant^.^ The complainants alleged that the subject had
 committed plagiarism by incorporating language from.a published article4into her declined
 NSF proposalsSwithout appropriate attrib~tion.~    The first complainant supplied materials
 indicating that the subject's university had conducted an investigation into the allegations
 involving the subject and had closed its case without a finding of misconduct.

         OIG wrote to the subject's university requesting a copy of its investigation report and
 supporting evidence. In our letter, we noted that NSF's misconduct regulation states (45
 C.F.R. §689.3(b)) that "[ilf an institution wishes NSF to defer independent inquiry or
 investigation, NSF expects it to . . . [ilnform NSF immediately if an initial inquiry supports a
 formal investigation. . . [and] [plrovide NSF with the final report from any investigation."
 We noted that, possibly because the university mistakenly believed that alleged misconduct in
 declined proposals was not covered by NSF's dsconduct regulation, the university neither
 informed OIG of this matter nor provided us with an investigation report in accordance with
 the regulation. The university informed us that it intended to comply with this requirement in
 the future and had indeed been unaware that allegations of misconduct concerning declined
,proposals to NSF fell within our jurisdiction. It also supplied us with its investigation report

 and the evidence supporting it.

       OIG reviewed the records of the u,niversity's investigation. We also reviewed materials
supplied by the subject and the complainants, including the records of additional inquiries by
the university into alleged plagiarism related to the original allegations against the subject.




6.The materials OIG received in this case contained numerous additional allegations concerning the subject, and
allegations by the subject against the first two complainants. Except as noted in the text, these allegations did not
involve NSF proposals or awards and therefore fell outside our jurisdiction.


                                              page 1 of 3                                       M96-20
                                   CLOSEOUT FOR M96080020

     While OIG's review was in progress, the third complainant submitted a plagiarism complaint
     against the subject to a professional association7of which both he and the subject were
     members. The association examined the complaint and concluded that there was insufficient
     evidence supporting it to warrant a formal investigation.

        OIG noted that the amount of allegedly plagiarized material comprised less than one
 page of the text of the twenty-three page published article. The material was a discussion of
 another researcher's concepts and findings, and the subject used it to set the context for her
 proposed original research. Although the passages in the published article and the subject's
 proposal were substantially similar, there were numerous differences in wording that prevented
 them from being identical. OIG concluded that the similarities between these passages were
 far more extensive than would be the case if two researchers had independently developed
 summaries of the ideas of a third scholar, and we rejected the university investigation
 committee's conclusions to the contrary. OIG noted that the subject and the author of the
 published article provided the university with conflicting accounts of the origin of the
 overlapping text, with each claiming to have originated the passages in dispute. OIG
 concluded that it was highly implausible that the text of the published article was itself copied
 from earlier work by the subject, and we believe the evidence to the contrary is insubstantial.*

        However, OIG concluded that it was questionable whether, given the amount and
character of the material that was allegedly misappropriated from the article and incorporated
into the subject's proposals, the alleged misappropriation was sufficiently serious to be
misconduct in science. OIG concluded that allegations of this level of seriousness which had
already been considered in proceedings in two different and independent forums (and, in one
forum, considered on more than one occasion) should not be investigated further in yet a third
forum.

        OIG also received allegations that the subject and her h ~ s b a n dalso
                                                                            , ~ a professor at the
university, had retaliated against a junior faculty member" at the university who had alleged
that the subject had committed plagiarism. OIG was informed that the subject and her
husband, along with several other members of the department to which the subject and the
junior faculty member had belonged, had written a minority report recommending that the
junior faculty member be denied tenure. A university committee decided that the subject and
her husband "voted negatively on the basis of criteria other than [the junior faculty memberl's
professional performance* and that their votes were "made in retaliation" against the junior
faculty member for alleging that the subject had committed misconduct. OIG examined the
minority report. OIG determined that it essentially focused on issues appropriately considered
in a tenure review. OIG further concluded that (1) it was fruitless in this instance to speculate
on the mixture of personal and professional motives that had caused members of the


' The
wdese- e                                in this paragraph are investigative conclusions that have not been
tested in an NSF adjudication.

'O   Dr.


                                        page 2 of 3
                                CLOSEOUT FOR M96080020

department to reach different decisions about whether the junior faculty member should receive
tenure; (2) there was abundant evidence in the records of the university's investigation
suggesting that various members of the department had strong personal feelings about either
the subject or the junior faculty member that might have affected their actions during the
tenure review; (3) the university committee grounded its judgments about the motives of the
subject and her husband in witness impressions and interpretations of casual comments; and (4)
as the university committee concluded, there was no evidence that university officials at higher
levels had retaliated against the junior faculty member by denying him tenure. In the absence
of more compelling evidence of either retaliatory action or intent, OIG decided there was
insufficient substance to this matter to warrant pursuing it further.

       This investigation is closed and no further action will be taken on this case.



cc: Integrity, IG




                                      page 3 of 3
